                                                                   Issue Date
                                                                            April 10, 2008
                                                                   Audit Report Number
                                                                            2008-CH-1005




TO:         Steven E. Meiss, Director of Public Housing Hub, 5APH


FROM:       Heath Wolfe, Regional Inspector General for Audit, 5AGA

SUBJECT: The Peoria Housing Authority, Peoria, Illinois, Did Not Effectively Administer
           Its Section 8 Housing Choice Voucher Program

                                     HIGHLIGHTS

 What We Audited and Why

              We audited the Peoria Housing Authority’s (Authority) Section 8 Housing Choice
              Voucher program (program). The audit was part of the activities in our fiscal year
              2007 annual audit plan. We selected the Authority based upon our analysis of
              risk factors relating to the housing agencies in Region V’s jurisdiction. Our
              objective was to determine whether the Authority administered its program in
              accordance with the U.S. Department of Housing and Urban Development’s
              (HUD) requirements. This is the second of two audit reports on the Authority’s
              program.

 What We Found

              The Authority’s program administration regarding housing assistance payment
              calculations, the Family Self-Sufficiency Program, and zero-income households
              was inadequate. The Authority overpaid more than $52,000 and underpaid nearly
              $1,000 in housing assistance and utility allowances due to calculation errors.
              Based on our statistical sample, we estimate that over the next year, the Authority
              will net overpay more than $242,000 in housing assistance and utility allowance
              payments based on calculation errors.

              The Authority failed to administer its Family Self-Sufficiency Program according
              to the United States Code, HUD’s requirements, and its family self-sufficiency
           action plan. As a result, it received more than $72,000 in Housing Choice
           Voucher - Family Self-Sufficiency/Homeownership Coordinator (Coordinator)
           grant funds but did not ensure that its Family Self-Sufficiency Program was
           managed effectively and efficiently, overfunded and underfunded its participants’
           escrow accounts by nearly $18,000, and inappropriately paid more than $14,000
           in final escrow payments.

           Further, the Authority failed to comply with its program administrative plan
           regarding zero-income household reviews. It did not effectively use HUD’s
           Enterprise Income Verification system or other third-party verification methods to
           determine whether households reporting zero income had unreported income. As
           a result, it unnecessarily paid housing assistance totaling nearly $75,000 for
           households that were required to meet their rental obligations.

           We informed the Authority’s executive director and the Director of HUD’s
           Chicago Office of Public Housing of minor deficiencies through a memorandum,
           dated March 31, 2008.

What We Recommend

           We recommend that the Director of HUD’s Chicago Office of Public Housing
           require the Authority to reimburse its program from nonfederal funds for the
           improper use of nearly $185,000 in program funds, provide documentation or
           reimburse its Coordinator program more than $72,000, and implement adequate
           procedures and controls to address the findings cited in this audit report. These
           procedures and controls should help ensure that more than $296,000 in program
           funds is spent on program administration that meets HUD’s requirements over the
           next year.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence issued because of the audit.

Auditee’s Response

           We provided our review results and supporting schedules to the Director of
           HUD’s Chicago Office of Public Housing and the Authority’s executive director
           during the audit. We also provided our discussion draft audit report to the
           Authority’s executive director, its board chairman, and HUD’s staff during the
           audit. We held an exit conference with the Authority’s executive director on
           March 20, 2008.

           We asked the Authority’s executive director to provide comments on our
           discussion draft audit report by April 1, 2008. The Authority’s executive director
           provided written comments dated, April 1, 2008. The executive director generally
           agreed with our findings and recommendations with the exception of the

                                            2
Authority’s use of Coordinator grant funds. The complete text of the written
comments, except for four attachments consisting of 17 pages of documentation
that were not necessary to understand the Authority’s comments, along with our
evaluation of that response, can be found in appendix B of this report. A
complete copy of the Authority’s comments plus the documentation was provided
to the Director of HUD’s Chicago Office of Public Housing.




                               3
                              TABLE OF CONTENTS

Background and Objective                                                                  5

Results of Audit
        Finding 1: Controls over Housing Assistance and Utility Allowance Payments
                   Were Inadequate                                                       6

        Finding 2: The Authority Failed to Operate Its Family Self-Sufficiency Program
                   In Accordance with Federal Requirements                               10

        Finding 3: The Authority’s Zero-Income Households Had Unreported Income          15

Scope and Methodology                                                                    18

Internal Controls                                                                        20

Appendixes
   A.   Schedule of Questioned Costs and Funds to Be Put to Better Use                   22
   B.   Auditee Comments and OIG’s Evaluation                                            24
   C.   Federal Requirements and the Authority’s Policies                                33
   D.   Housing Assistance and Utility Allowance Payment Errors                          37
   E.   Overpaid Assistance for Zero-Income Households                                   38




                                               4
                      BACKGROUND AND OBJECTIVE

The Peoria Housing Authority (Authority) was established by the State Housing Board of Illinois
in August 1936 under the laws of the State of Illinois to provide decent, safe, and sanitary
housing. The Authority is governed by a five-member board of commissioners (board)
appointed by the mayor to five-year staggered terms. The board’s responsibilities include
overseeing the Authority’s operations, as well as the review and approval of its policies. The
board appoints the Authority’s executive director. The executive director is responsible for
coordinating established policy and carrying out the Authority’s day-to-day operations.

The Authority administers a Section 8 Housing Choice Voucher program (program) funded by
the U.S. Department of Housing and Urban Development (HUD). It provides assistance to low-
and moderate-income individuals seeking decent, safe, and sanitary housing by subsidizing rents
with owners of existing private housing. As of February 2, 2008, the Authority had 1,942 units
under contract with annual housing assistance payments totaling more than $7.9 million in
program funds. The Authority also received Housing Choice Voucher - Family Self-
Sufficiency/Homeownership Coordinator (Coordinator) grant funds to pay the salary and fringe
benefits of its Family Self-Sufficiency Program coordinator.

Our objective was to determine whether the Authority administered its program in accordance
with HUD’s requirements to include determining whether the Authority (1) accurately calculated
housing assistance and utility allowance payments, (2) complied with HUD’s requirements
regarding the administration of its Family Self-Sufficiency Program, and (3) appropriately
verified whether reported zero-income households had income. This is the second of two audit
reports on the Authority’s program. The first audit report (report number 2007-CH-1014, issued
on September 24, 2007) included one finding. That finding was not repeated in this audit report.




                                               5
                                 RESULTS OF AUDIT

Finding 1: Controls over Housing Assistance and Utility Allowance
                      Payments Were Inadequate
The Authority failed to comply with HUD’s requirements and its program administrative plan
regarding housing assistance and utility allowance payments. It incorrectly calculated housing
assistance and utility allowance payments. This noncompliance occurred because the Authority
lacked adequate procedures and controls to ensure that HUD’s requirements and its program
administrative plan were appropriately followed. As a result, the Authority overpaid more than
$52,000 and underpaid nearly $1,000 in housing assistance and utility allowances. Based upon
our statistical sample, we estimate that over the next year, the Authority will net overpay more
than $242,000 in housing assistance.


 The Authority Miscalculated
 Housing Assistance and Utility
 Allowance Payments

               From the 1,140 active program households as of August 27, 2007, we statistically
               selected 67 households’ files by using data mining software. The 67 files were
               reviewed to determine whether the Authority had documentation for and correctly
               calculated households’ housing assistance and utility allowance payments for the
               period January 2006 through July 2007. Our review was limited to the
               information maintained by the Authority in its households’ files.

               The Authority’s miscalculations resulted in overpayments of $30,454 and
               underpayments of $947 in housing assistance and utility allowances. The
               Authority incorrectly calculated housing assistance and/or utility allowance
               payments for 32 of the 67 (48 percent) households in one or more of the
               certifications reviewed. The 32 files contained the following errors:

                   •   14 had inappropriate utility allowances for one or more certifications;
                   •   13 had annual income calculation errors for one or more certifications;
                   •   13 had incorrect payment standards for one or more certifications;
                   •   Six had incorrect dependent allowances for one or more certifications;
                   •   Four did not use the correct minimum rent for one certification; and
                   •   One had incorrect child care costs.

               The following are examples of the types of errors found:

               X   The Authority used an incorrect voucher size and payment standard for
                   household 62. The household members included the head of household and
                   her son and daughter, both under age six. According to the Authority’s


                                                6
               program administration plan, separate bedrooms are allocated to persons of
               the opposite sex, other than adults who have a spousal relationship and
               children under age six. Therefore, the household was entitled to a two-
               bedroom voucher and payment standard. However, the Authority used a
               three-bedroom voucher and payment standard. As a result, it overpaid $4,524
               in housing assistance and utility allowances.

           X   The Authority miscalculated the annual income for household 34 by not
               including all of the household’s earned annual income. The head of
               household reported child support income, and the Authority received third-
               party verification of the income. However, it failed to include the $6,037 in
               child support income when calculating the housing assistance payment. As a
               result, it overpaid $1,650 in housing assistance.

           When the Authority discovered households had unreported income through the
           use of HUD’s Enterprise Income Verification system (system) or other similar
           third-party verification, it did not pursue repayment agreements with the
           households. According to the program administrative plan, the Authority will
           make every effort to collect when households owe it money. Of the 67 household
           files reviewed, eight contained documentation showing that the households had
           unreported income resulting in $22,283 of total overpaid housing assistance and
           utility allowances. The Authority did not attempt to recover the overpayments.

           Appendix D of this report details the housing assistance and utility allowance
           payment errors that resulted from the Authority’s incorrect calculations.

The Authority’s Procedures
and Controls Had Weaknesses

           The housing assistance and utility allowance payments were erroneously calculated
           because the Authority lacked adequate procedures and controls to ensure that it
           appropriately followed HUD’s requirements and its program administrative plan. In
           addition, it did not consistently use HUD’s system or other similar third-party
           income verification (see finding 3).

           Further, the Authority failed to exercise proper supervision and oversight of its
           certification process. Specifically, it did not follow its administrative plan for the
           quality control review process. The plan requires audits of 25 percent of annual
           certifications. However, the Authority was unable to determine the percentage of
           certifications audited in 2005, less than 4 percent of certifications were audited in
           2006, and no certifications were audited in 2007. The Section 8 director said she
           was unaware of the percentage of annual certifications that needed to be completed
           as required in the Authority’s administrative plan. She also said that the Authority
           was unable to perform quality control reviews of its certification process in 2007 due
           to our two audits of the Authority’s program.




                                             7
Conclusion

             The Authority improperly used its program funds when it failed to comply with
             HUD’s requirements and its program administrative plan. As previously
             mentioned the Authority overpaid $52,737 ($34,454 plus $22,283) and underpaid
             $947 in housing assistance and utility allowances for a net overpayment of
             $51,790. Of the 67 files reviewed, 32 had incorrect housing assistance payment
             calculations.

             In accordance with 24 CFR [Code of Federal Regulations] 982.152(d), HUD is
             permitted to reduce or offset any program administrative fees paid to a public
             authority if it fails to perform its administrative responsibilities correctly or
             adequately under the program. The Authority received $14,603 in program
             administrative fees related to the inappropriate payments for the 32 program
             households with incorrect housing assistance payment calculations.

             HUD lacks assurance that the Authority used its program funds efficiently and
             effectively since it overpaid $52,737 and underpaid $947 in housing assistance
             and utility allowances. If the Authority does not correct its certification process,
             we estimate that it could net overpay more than $242,000 in excessive housing
             assistance and utility allowances over the next year. Our methodology for this
             estimate is explained in the Scope and Methodology section of this audit report.
             The Authority could put these funds to better use if proper procedures and
             controls are put in place to ensure the accuracy of housing assistance and utility
             allowance payments.

Recommendations

             We recommend that the Director of HUD’s Chicago Office of Public Housing
             require the Authority to

             1A.    Reimburse its program $52,737 from nonfederal funds for the
                    overpayment of housing assistance and utility allowances cited in this
                    finding.

             1B.    Reimburse the appropriate households $947 for the underpayment of
                    housing assistance and utility allowances cited in this finding.

             1C.    Reimburse its program $14,603 from nonfederal funds for the
                    inappropriate administrative fees related to the 32 households in this
                    finding.

             1D.    Implement adequate procedures and controls to ensure that its housing
                    assistance and utility payment calculations comply with HUD’s
                    requirements and its program administrative plan to ensure that an


                                               8
estimated $242,202 in net program funds is appropriately used for future
payments over the next year.




                         9
Finding 2: The Authority Failed to Operate Its Family Self-Sufficiency
          Program in Accordance with Federal Requirements
The Authority failed to operate its Family Self-Sufficiency Program according to the United
States Code, HUD’s requirements, and its family self-sufficiency action plan. This
noncompliance occurred because the Authority failed to exercise proper supervision and
oversight of its Family Self-Sufficiency Program and lacked adequate procedures and controls to
ensure that federal requirements were appropriately followed. As a result, participants did not
receive the needed support to achieve economic independence and self-sufficiency; and the
Authority overfunded participants’ escrow accounts by more than $17,000 and inappropriately
paid more than $14,000 in final escrow payments to participants that did not reach their self-
sufficiency goals.


 The Authority Improperly
 Operated Its Family Self-
 Sufficiency Program


              The Authority inappropriately administered its Family Self-Sufficiency Program
              by failing to ensure that participants’ escrow credits were accurate and all
              required documents were properly maintained and executed for the participating
              households and failed to maintain an effective program coordinator.

 Escrow Account Credits Were
 Inaccurate

              We reviewed the escrow accounts for the 29 Family Self-Sufficiency Program
              participants that had escrow balances or were active participants as of January 1,
              2005, to determine whether the Authority correctly calculated the monthly escrow
              credits and maintained the escrow accounts in compliance with HUD’s
              requirements. Of the 29 participants reviewed, 23 had incorrect escrow account
              calculations. The family self-sufficiency escrow accounts were overfunded by
              $17,126 for 10 participants and underfunded by $787 for six participants.

              In addition, the Authority inappropriately paid $14,576 in escrow funds to seven
              Family Self-Sufficiency Program participants. Of the seven participants, two
              received $12,081 in escrow funds although they did not reach their family self-
              sufficiency goals and five were overpaid $2,495 because the escrow accounts
              were overfunded.




                                              10
The Authority Failed to Ensure
That Required Documentation
Was Properly Maintained
and/or Executed
            As previously mentioned, we reviewed the files of 29 Family Self-Sufficiency
            Program participants who had escrow balances or were active participants as of
            January 2005. Of the 29 participant files reviewed,

               •   19 files contained late escrow account credit worksheets,
               •   16 files contained incorrect escrow account credit worksheets,
               •   16 files contained incorrect contracts of participation,
               •   Seven files were missing escrow account credit worksheets, and
               •   Eight files were missing annual participant update reports.

            According to the Family Self-Sufficiency Program Escrow Account Credit
            Worksheet, HUD Form 52652, escrow credits must be determined at each
            reexamination and interim determination occurring after the effective date of the
            Family Self-Sufficiency Program contract of participation while the family is
            participating in the Family Self-Sufficiency Program. For the 29 files reviewed,
            19 files contained one or more HUD forms 52652 that were completed on average
            122 days after the effective dates of the certifications, 16 files contained one or
            more incorrectly calculated HUD forms 52652, and seven files were missing one
            or more HUD forms 52652. In addition, HUD’s Housing Choice Voucher
            Guidebook 7420.10, chapter 23, section 5, states that the public housing authority
            must compute escrow credits any time it conducts an annual or interim
            reexamination of income for a family self-sufficiency participant during the term
            of the contract of participation.

            As previously mentioned, because the documentation was incorrect, late, and
            missing, the Authority made incorrect deposits to the participants’ family self-
            sufficiency escrow accounts. Therefore, the escrow accounts were overfunded by
            $17,126 for 10 participants and underfunded by $787 for six participants, and
            $14,576 in escrow funds was overpaid to seven participants. The Authority’s
            Section 8 director said that the family self-sufficiency files were not properly
            maintained because the coordinator’s position had a high turnover rate.

The Authority Failed To
Maintain an Effective
Committee and Program
Coordinator

            The Authority did not maintain an effective program coordinating committee
            (committee) in accordance with HUD’s regulations and its family self-sufficiency
            action plan. HUD regulations at 24 CFR [Code of Federal Regulations]
            984.202(a) state that each participating housing authority must establish a


                                            11
           program coordinating committee whose function will be to assist the housing
           authority in securing commitments of public and private resources for the
           operation of the Family Self-Sufficiency Program. The action plan states that the
           coordinating committee would establish and maintain a structured program for
           family self-sufficiency participants that will assess needs, provide leadership
           development, encouragement in the achievement of identified goals, and aid in
           skill building techniques. Although the Authority’s action plan states that the
           committee meets on a monthly basis, it could not provide documentation to
           support that the committee was active from January 2005 through July 2007.

           The Authority also failed to maintain an effective coordinator in accordance with
           HUD’s regulations and its family self-sufficiency action plan. The action plan
           stated that the Authority hired a full-time family self-sufficiency coordinator who
           was responsible for identifying participants’ skills and needs and provided
           ongoing monitoring and support to participants in meeting their goals. During our
           audit scope, there were four different family self-sufficiency coordinators and
           eight months during which the position was vacant. In addition, the coordinators
           did not effectively oversee the Family Self-Sufficiency Program by failing to
           ensure that participants established appropriate and attainable goals, received
           ongoing monitoring and support to reach their goals, and completed all
           requirements for successful completion of the Family Self-Sufficiency Program.
           As a result, HUD and the Authority have no assurance the family self-sufficiency
           participants are receiving the necessary support to reach their goals of self-
           sufficiency.

           HUD awarded the Authority three grants totaling $141,794 under its Coordinator
           program for fiscal years 2004 through 2007. These funds were made available to
           pay the salary and fringe benefit of a coordinator under the stipulation that the
           Authority administer the Family Self-Sufficiency Program in accordance with
           federal regulations and HUD’s requirements. The Authority used $72,235 of the
           Coordinator funds from January 2005 through July 2007. Given that the
           Authority and the coordinator failed to maintain an effective program and
           implement its action plan to establish and maintain a structured program for
           family self-sufficiency participants, the Authority may not have properly used the
           $72,235 in Coordinator funds.

The Authority’s Procedures
and Controls Need
Improvement

           The Authority needs to improve its procedures and controls over the
           administration of its Family Self-Sufficiency Program. It failed to exercise proper
           supervision and oversight of the Family Self-Sufficiency Program. It also lacked
           adequate procedures and controls to ensure that federal requirements were
           appropriately followed.




                                           12
             Since the Authority’s finance department maintains the escrow accounts for the
             family self-sufficiency participants and the family self-sufficiency coordinator
             calculates the escrow deposits, the two departments should coordinate to ensure
             the accuracy of the participants’ escrow accounts. As a result of the family self-
             sufficiency coordinator’s not updating the finance department on changes in
             escrow credits and participant termination and graduation dates, the incorrect
             deposits were applied to the participants’ escrow accounts, resulting in
             overfunded or underfunded balances. In addition, the number of family self-
             sufficiency participants listed in the Authority’s systems and HUD’s Public and
             Indian Housing Information Center did not agree. The systems combined listed
             50 family self-sufficiency participants. We reviewed the files for all 50
             participants listed in the three systems to determine which households were active
             family self-sufficiency participants. Of the 50 participants, 21 were either never
             family self-sufficiency participants, did not have escrow activity, or were
             terminated or graduated before January 1, 2005.

Conclusion

             The Authority improperly used funds from the Family Self-Sufficiency Program
             when it failed to comply with federal requirements and its own policies. Its
             failure to maintain sufficient documentation in the participants’ files (1) made it
             difficult to determine whether the Family Self-Sufficiency Program met its goal
             of enabling households to become economically self-sufficient and (2) increased
             the likelihood that inappropriate participants received payments. It also reduced
             the Authority’s ability to monitor and measure the effectiveness of the Family
             Self-Sufficiency Program. As a result of its noncompliance, the Authority
             inappropriately paid $14,576 in escrow funds, overfunded participants’ escrow
             amounts by $17,126, and underfunded participants’ escrow accounts by $787.

             Unless the Authority improves its procedures and controls over its Family Self-
             Sufficiency Program, we estimate that it could inappropriately use $12,271 in
             program funds for its family self-sufficiency escrow accounts over the next year.
             Our methodology for this estimate is explained in the Scope and Methodology
             section of this audit report. The Authority could put these funds to better use if
             proper procedures and controls are put in place to ensure the accuracy of
             participants’ escrow funds.


Recommendations

             We recommend that the Director of HUD’s Chicago Office of Public Housing
             require the Authority to

             2A.    Reimburse its program $14,576 from nonfederal funds for the escrow
                    funds overpaid to the seven participants cited in this finding.



                                              13
2B.   Reimburse its program $17,126 from nonfederal funds for the overfunding
      of 10 participants’ escrow accounts cited in this finding.

2C.   Transfer to the six participants’ escrow accounts $787 in Family Self-
      Sufficiency Program funds for the underfunding of escrow funds cited in
      this finding.

2D.   Establish and maintain a committee in accordance with HUD’s regulations
      and its family self-sufficiency action plan.

2E.   Provide documentation to support its allocation of time spent correctly
      administering the Family Self-Sufficiency Program or reimburse its
      Coordinator funds from nonfederal funds the appropriate portion of the
      $72,235 used when the Authority’s Family Self-Sufficiency Program was
      incorrectly administered.

2F.   Implement adequate procedures and controls over its Family Self-
      Sufficiency Program to ensure that it follows federal requirements and its
      HUD-approved action plan to prevent Coordinator grant funds from being
      spent contrary to federal requirements.

2G.   Implement adequate procedures and controls over its Family Self-
      Sufficiency Program to ensure that it follows federal requirements and its
      HUD-approved action plan within the next 12 months to prevent $12,271
      in program funds from being spent contrary to federal requirements.




                               14
Finding 3: The Authority’s Zero-Income Households Had Unreported
                               Income
The Authority did not effectively use HUD’s system or other third-party verification methods to
perform periodic reviews to determine that reported zero-income households had unreported
income. Of the 136 households reviewed, 47 had unreported income that affected their housing
assistance and utility allowance payments. This condition occurred because the Authority lacked
adequate procedures and controls to perform appropriate income verifications. As a result, it
unnecessarily paid housing assistance and utility allowances totaling more than $74,000 for
households that were required to meet their rental obligations.



 Households Had Unreported
 Income

              We reviewed all 136 of the Authority’s household files that reported zero income
              as of August 2007 to determine whether they had income for the period October
              1, 2005, through July 31, 2007. The Authority’s program administrative plan
              states that an interim reexamination will be scheduled for households with zero
              income every 90 days to review for changes in income. However, the Authority
              did not perform reexaminations every 90 days for the 136 household files we
              reviewed.

              Of the zero-income household files reviewed, 72 had income not reported to the
              Authority but income information was available through HUD’s system. Of the
              72 households with unreported income, 47 had a total of $74,460 in total
              overpayments of housing assistance and utility allowances. As of January 2008,
              the Authority had initiated action to recover $27,841 in overpaid funds for 16 of
              the 47 households. Therefore, the Authority provided excessive housing
              assistance and utility allowance payments for 31 households totaling $46,619
              ($74,460 minus $27,841). Our review was limited to the information maintained
              in the household files and HUD’s system.

              The following are examples of households with unreported income:

              X   Household 103 had income, according to HUD’s system, totaling $24,338.
                  Since the household had unreported income, the Authority overpaid $4,258 in
                  housing assistance from September 1, 2005, through July 31, 2007. There was
                  no evidence in the household file that the Authority accessed HUD’s system
                  from October 2005 through July 2007. However, unreported income was
                  listed on HUD’s system in February and May 2006 and March and May 2007.
                  If the Authority had conducted periodic reviews every 90 days as stated in its
                  administrative plan or accessed HUD’s system while completing annual
                  certifications, it would have found the unreported income and been able to
                  verify the household’s employment status by performing a third-party
                  verification.


                                               15
           X   Household 124 had income, according to HUD’s system, totaling $10,540.
               Since the household had unreported income, the Authority overpaid $4,640 in
               housing assistance from June 1, 2006, through July 31, 2007. The household
               file contained a third-party employment verification received by the Authority
               on May 8, 2006, stating that a household member was hired on September 6,
               2005. However, the Authority did not attempt to recover the overpaid housing
               assistance.

           As previously mentioned, 72 of the 136 files reviewed had income not reported to
           the Authority but income information was available through HUD’s system. Per
           HUD’s upfront income verification monitoring review performed in September
           2005, HUD determined that the Authority had successfully implemented the use
           of HUD’s system. In addition, the Authority’s administrative plan states up-front
           income verification is the first method the Authority uses to verify income
           information. Therefore, the Authority would have discovered the unreported
           income if it had accessed HUD’s system in accordance with its administrative
           plan while conducting reviews every 90 days. Its executive director said that the
           Authority was unable to perform the 90 day reveiws due to a staffing shortage.

The Authority Lacked
Adequate Procedures and
Controls


           The overpayment of $74,460 in housing assistance and utility allowances to
           households that reported zero income but had income occurred because the
           Authority lacked adequate procedures and controls for performing appropriate
           income verification. The Authority needs to make full use of HUD’s system or
           perform other third-party income verification for all households at the time of
           examinations. Periodic quality control reviews are an important step in ensuring
           that the Authority’s housing assistance and utility allowance payments are
           accurate. If the Authority had conducted periodic reviews every 90 days as stated
           in its administrative plan, it would have discovered the income information and
           been able to verify the household’s employment status by performing a third party
           verification.

           In addition, of the 136 household files reviewed, 15 contained documentation
           showing that the households earned income during the periods in which zero
           income was reported, but the Authority did not attempt to recover the overpaid
           housing assistance. It did not ensure that its staff took appropriate steps to
           determine whether households reporting zero income had unreported income.
           Periodic quality control reviews are an important step in ensuring that the
           Authority’s housing assistance and utility allowance payments are accurate. If the
           Authority had conducted periodic reviews every 90 days as stated in its
           administrative plan, it would have found the income information and been able to
           verify the households’ employment status by performing a third-party
           verification.


                                            16
             As a result of the Authority’s failure to properly verify household income for its
             zero-income households and recover overpaid housing assistance, it improperly
             paid $74,460 in housing assistance and utility allowances for households that
             were required to meet their rental obligations. In addition, the Authority received
             $11,225 in program administrative fees for the periods during which periodic
             reviews would have revealed unreported income for the 47 households reporting
             zero income.

Conclusion


             HUD lacks assurance that the Authority used its program funds efficiently and
             effectively since it overpaid $74,460 in housing assistance. If the Authority does
             not correct its zero-income review process and controls, we estimate that it could
             overpay $40,615 in excessive housing assistance over the next year. Our
             methodology for this estimate is explained in the Scope and Methodology section
             of this audit report. The Authority could put these funds to better use if proper
             procedures and controls are put in place to ensure the accuracy of housing
             assistance payments.

Recommendations

             We recommend that the Director of HUD’s Chicago Office of Public Housing
             require the Authority to

             3A. Pursue collection from the applicable households or reimburse its program
                 $46,619 from nonfederal funds for the overpayment of housing assistance and
                 utility allowances cited in this finding.

             3B. Reimburse its program $11,225 from nonfederal funds for the inappropriate
                 administrative fees related to the 47 households cited in this finding.

             3C. Implement adequate procedures and controls to ensure that its households
                 reporting zero income do not have income that would result in
                 overpayments of housing assistance and to ensure that $40,615 in program
                 funds is appropriately used for future payments over the next year.

             3D. Ensure that it collects $27,841 in overpaid housing and utility allowances
                 for the 16 households cited in this finding or reimburse its program the
                 applicable amount from nonfederal funds.




                                              17
                         SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

       •       Applicable laws, regulations; the Authority’s 2000 program administrative plan,
               United States Code, Title 42, chapter 8, subchapter I, subsection 1437u; HUD’s
               program requirements at 24 CFR [Code of Federal Regulations] Parts 5 and 982;
               and HUD’s Housing Choice Voucher Guidebook 7420.10.

       •       The Authority’s accounting records; annual audited financial statements for 2003,
               2004, 2005, and 2006; bank statements; household files; policies and procedures;
               board meeting minutes for January 2005 through January 2007; organizational chart;
               and program annual contributions contract with HUD.

       •       HUD’s files for the Authority.

We also interviewed the Authority’s employees and board chairman, HUD staff, and program
households.

Finding 1

Using data mining software, we statistically selected 67 of the Authority’s program households
from the 1,140 households on the Authority’s program as of August 27, 2007. The 67
households were selected to determine whether the Authority correctly calculated households’
housing assistance payments. Our sampling criteria used a 90 percent confidence level with a 50
percent estimated error rate.

Unless the Authority improves its procedures and controls over its calculation of housing
assistance, we estimate that it could net overpay $242,202 in housing assistance and utility
allowances over the next year. We determined this amount by multiplying the error rate of 4.92
percent by the total housing assistance ($4,922,808) paid for the 1,140 program households over
12 months. The error rate was determined by dividing the amount of net overpaid housing
assistance ($28,465) due to incorrect calculations by the total housing assistance ($578,033) paid
to the households in the sample. This estimate is presented solely to demonstrate the annual
amount of program funds that will be correctly paid over the next year if the Authority
implements our recommendation. While these benefits would recur indefinitely, we were
conservative in our approach and only included the initial year in our estimate.

Finding 2

We reviewed the 29 participants that had escrow balances or were active family self-sufficiency
participants as of January 1, 2005, to determine whether the Authority correctly calculated the
monthly escrow credits and maintained the escrow account in compliance with HUD’s
regulations. Unless the Authority improves its procedures for its Family Self-Sufficiency
Program, we estimate that it could inappropriately use $12,271 in program funds for its family
self-sufficiency escrow accounts over the next year. We determined this amount by multiplying


                                                18
the average monthly overfunded amount for the family self-sufficiency escrow accounts
($17,126 divided by 31 months) and the average monthly overpayment of escrow funds ($14,576
divided by 31 months) by 12 months.

Finding 3

Using data mining software, we statistically selected 46 of the Authority’s program households
reporting zero income from the 136 zero-income households on the Authority’s program as of
August 27, 2007. Based on the review results for the 46 households, we expanded the review to
the remaining 90 households.

Unless the Authority improves its procedures and controls over its review of reported zero-
income households, we estimate that it could overpay $40,615 in housing assistance over the
next year. We determined this amount by multiplying the average monthly overpayment of
housing assistance ($3,384.55) for households that reported zero income but had unreported
income by 12 months.

We performed our on-site audit work between August 2007 and January 2008 at the Authority’s
offices located at 100 South Richard Pryor Place, Peoria, Illinois. The audit covered the period
January 1, 2005, through July 31, 2007, but was expanded as determined necessary.

We performed our audit in accordance with generally accepted government auditing standards.




                                               19
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Validity and reliability of data,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined the following internal controls were relevant to our objective:

              •       Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

              •       Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

              •       Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

              •       Safeguarding resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if internal controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.


 Significant Weakness

              Based on our review, we believe the following item is a significant weakness:

                                               20
•   The Authority lacked adequate procedures and controls to ensure compliance
    with federal requirements and/or its program administrative plan regarding the
    calculation of housing assistance payments, the administration of its Family
    Self-Sufficiency Program, and the review of reported zero-income households
    (see findings 1, 2, and 3).




                                21
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE


           Recommendation                                        Funds to be put
               number            Ineligible 1/ Unsupported 2/     to better use 3/
                 1A                  $52,737
                 1B                                                         $947
                 1C                   14,603
                 1D                                                     $242,202
                 2A                   14,576
                 2B                   17,126
                 2C                                                          787
                 2D                                    $72,235
                 2G                                                       12,271
                 3A                   46,619
                 3B                   11,225
                 3C                                                      $40,615
                 3D                   27,841
                Totals              $184,727           $72,235          $296,822


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified. In these instances, if the Authority implements our
     recommendations, it will cease to incur program costs for the overpayment of housing


                                            22
assistance and the inappropriate administration of its Family Self-Sufficiency Program
funds and, instead, will expend those funds in accordance with federal requirements.
Once the Authority successfully improves its controls, this will be a recurring benefit.
Our estimate reflects only the initial year of this benefit.




                                        23
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION

Ref to OIG Evaluation   Auditee Comments




                         24
Ref to OIG Evaluation   Auditee Comments




Comment 1




                         25
Ref to OIG Evaluation   Auditee Comments




                         26
Ref to OIG Evaluation   Auditee Comments




Comment 2




                         27
Ref to OIG Evaluation   Auditee Comments




Comment 3




                         28
Ref to OIG Evaluation   Auditee Comments




Comment 4




                         29
Ref to OIG Evaluation   Auditee Comments




                         30
Ref to OIG Evaluation   Auditee Comments




                         31
                         OIG’s Evaluation of Auditee Comments

Comment 1   We agree with the Authority that HUD’s regulations at 24 CFR [Code of Federal
            Regulations] 982.402(8) state that in determining family unit size for a particular
            family, the housing authority may grant an exception to its established subsidy
            standards if the authority determines that the exception is justified by the age, sex,
            health, handicap, or relationship of family members or other personal
            circumstances. (For a single person other than a disabled or elderly person or
            remaining family member, such housing authority exception may not override the
            limitation in paragraph (b)(7) of this section.) However, Chapter 5 of the
            Authority’s program administrative plan states the Authority will grant exceptions
            from the subsidy standards if the family requests and the Authority determines the
            exceptions are justified by the relationship, age, sex, health, or disability of family
            members or other individual circumstances.

            The Authority did not provide documentation to support that the 13 households
            requested a larger sized voucher nor its determination that the request was
            justified. Therefore, no adjustment was made to this audit report.

Comment 2   The Authority did not provide adequate documentation with its written comments
            to support that it maintained an effective program coordinator committee in
            accordance with HUD’s regulations and its family self-sufficiency action plan
            from January 2005 through July 2007. The supporting documentation the
            Authority provided to dispute our finding was three agendas for its program
            coordinating committee meetings held after July 2007 and a listing of the program
            committee members. Therefore, no adjustment was made to this audit report.

Comment 3   The Authority did not provide any documentation with its written comments to
            support that it reimbursed its program $17,126 from nonfederal funds for the
            overfunding of 10 participants’ escrow accounts. It also did not provide any
            documentation supporting that it transferred to the six participants’ escrow
            accounts $787 in Family Self-Sufficiency Program funds for the underfunding of
            escrow funds. Therefore, no adjustment was made to this audit report.

Comment 4   While the Authority may disagree with the finding, its interest in implementing
            controls and procedures indicates the Authority’s willingness to further address
            the importance of this issue. The Authority also acknowledges that there was
            instability of the Family Self-Sufficiency Program when the position was vacant
            during January 1, 2005, through July 31, 2007. In addition, the Authority did not
            provide documentation to support its allocation of time was spent correctly
            administering the Family Self-Sufficiency Program. Therefore, no adjustment
            was made to this audit report.




                                              32
Appendix C

      FEDERAL REQUIREMENTS AND THE AUTHORITY’S
                      POLICIES

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.54 require the public housing
authority to adopt a written administrative plan that establishes local policies for the
administration of the program in accordance with HUD requirements. The administrative plan
states the public housing authority’s policies on matters for which the public housing authority
has discretion to establish local policies. The public housing authority must administer the
program in accordance with its administrative plan.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.153 state that the public
housing authority must comply with the consolidated annual contributions contract, the
application, HUD regulations and other requirements, and its program administrative plan.

Finding 1

HUD’s regulations at 24 CFR [Code of Federal Regulations] 5.240(c) state that the public
housing authority must verify the accuracy of the income information received from a household
and change the amount of the total tenant payment, tenant rent, or program housing assistance
payment or terminate assistance, as appropriate, based on such information.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.516(a)(1) require the public
housing authority to conduct a reexamination of family income and composition at least
annually. The public housing authority must obtain and document in the household file third-
party verification or why third-party verification was not available for the following factors: (1)
reported family annual income, (2) the value of assets, (3) expenses related to deductions from
annual income, and (4) other factors that affect the determination of adjusted income. At any
time, the public housing authority may conduct an interim reexamination of family income and
composition.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.308(g)(2) state that if there are
any changes in lease requirements governing tenant or owner responsibilities for utilities or
appliances tenant-based assistance shall not be continued unless the public housing authority has
approved a new tenancy in accordance with program requirements and has executed a new
housing assistance payments contract with the owner.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.451 require the public housing
authority to determine the amount of the monthly housing assistance payment in accordance with
HUD regulations and other requirements.

Chapter 1 of the Authority’s program administrative plan states that supervisory staff must audit
25 percent of reexaminations and 35 percent of new applications.


                                                 33
Chapter 5, section A, of the Authority’s program administrative plan states that generally, the
Authority assigns one bedroom to two people within the following guidelines:

       •   Persons of different generations, persons of opposite sex (other than spouses), and
           unrelated adults should be allocated a separate bedroom.

       •   Separate bedrooms should be allocated for persons of the opposite sex (other than
           adults who have a spousal relationship and children under age six).

Chapter 5 of the Authority’s program administrative plan states that the family may request a
larger size certificate or voucher than indicated by the Authority’s subsidy standards. Such
requests must be made in writing within 10 working days of the Authority’s determination of
bedroom size. The request must explain the need or justification for a larger bedroom.
Documentation verifying the need or justification will be required as appropriate.

Chapter 7 of the Authority’s program administrative plan states that verification of full-time
student status includes (1) written verification from the registrar’s office or other school official
and (2) school records indicating enrollment for sufficient number of credits to be considered a
full time student by the educational institution.

Chapter 12 of the Authority’s program administrative plan states that if the Authority makes a
calculation error at admission to the program or at an annual reexamination, an interim
reexamination will be conducted, if necessary, to correct he error, but the family will not be
charged retroactively. Families will be given decreases, when applicable; retroactive to when the
decrease for the change would have been effective if calculated correctly.

Finding 2

United States Code, Title 42, chapter 8, subchapter I, subsection 1437u(a), states that the purpose
of the Family Self-Sufficiency Program established under this section is to promote the
development of local strategies to coordinate use of public housing and assistance under the
certificate and voucher programs under section 1437f of this title with public and private
resources to enable eligible households to achieve economic self-sufficiency.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 984.202 state that each
participating authority must establish a committee, the functions of which will be to assist the
authority in securing commitments of public and private resources for the operation of the
Family Self-Sufficiency Program within the authority’s jurisdiction, including assistance in
developing the action plan and in program implementation.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 984.303(a) state that each family
that is selected to participate in the Family Self-Sufficiency Program must enter into a contract of
participation with the public housing authority that operates the Family Self-Sufficiency Program
in which the family will participate. The contract of participation shall be signed by the head of
the family self-sufficiency family.



                                                  34
HUD’s regulations at 24 CFR [Code of Federal Regulations] 984.303(a)(2) state that the
individual training and services plan, incorporated in the contract of participation, shall establish
specific interim and final goals by which the public housing authority and the family may
measure the family’s progress toward fulfilling its obligations under the contract of participation
and becoming self-sufficient.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 984.303(c) state that the contract of
participation shall provide that each family self-sufficiency family will be required to fulfill
those obligations to which the participating family has committed itself under the contract of
participation no later than five years after the effective date of the contract.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 984.303(d) state that the public
housing authority shall, in writing, extend the term of the contract of participation for a period
not to exceed two years for any family self-sufficiency family that requests, in writing, an
extension of the contract, provided that the public housing authority finds that good cause exists
for granting the extension.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 984.305(a)(3) state that each public
housing authority will be required to make a report, at least once annually, to each family self-
sufficiency family on the status of the family’s family self-sufficiency account.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 984.305(b)(3) state that the public
housing authority shall not make any additional credits to the family self-sufficiency family’s
family self-sufficiency account when the family self-sufficiency family has completed the
contract of participation or when the contract of participation is terminated or otherwise nullified.

According to the 71 Federal Register 11897, applicants (for the Family Self-Sufficiency Program
Coordinator grant funds) must administer the Family Self-Sufficiency Program in accordance
with HUD regulations and requirements and must comply with the existing program
requirements, notices, and guidebooks.

Finding 3

HUD’s Public and Indian Housing Notice 2005-9, section 4(e), states that families can be
required to report all increases in income between reexaminations, and the public housing
authority may conduct more frequent interim reviews for families reporting no income.

Chapter 12, section C, of the Authority’s program administrative plan states that an interim
reexamination will be scheduled for households with zero income every 90 days.

Chapter 12, section B, of the Authority’s program administrative plan states if tenant rent
increases, a 30-day notice is mailed to the family before the anniversary date. If fewer than 30
days are remaining before the anniversary date, the tenant rent increase will be effective on the
first of the month following the 30-day notice.




                                                 35
Chapter 12, section E, of the Authority’s program administrative plan states that if the family
does not report interim changes to the housing authority within 30 days of when the change
occurs, the family will have caused an unreasonable delay in the interim reexamination
processing, and the following guidelines will apply:

       •   Increase in tenant rent will be effective retroactive to the date on which it would have
           been effective had it been reported on a timely basis. The family will be liable for any
           overpaid housing assistance and may be required to sign a repayment agreement.

       •   Decrease in tenant rent will be effective on the first of the month following the month
           during which that the change was reported.




                                                 36
Appendix D

       HOUSING ASSISTANCE AND UTILITY ALLOWANCE
                    PAYMENT ERRORS
                                                                                            Error type




                                                                                                            Minimum rent




                                                                                                                                        Unreported
                                                                                                Dependent




                                                                                                                           Child care
                                                                allowance




                                                                                                allowance
      OIG




                                                                                     standard
                                                                                     Payment
                                                                            Income




                                                                                                                                        income
  household        Overpaid     Underpaid        Improper




                                                                Utility




                                                                                                                           costs
 identification    housing       housing       administrative
    number        assistance    assistance         fees
       1                 $120             $0            $120                x
       2                2,046              0             999                           x           x
       4                  132          (330)             462                x
       5                  240           (72)             312       x
       6                   14           (45)               59               x
       9                    0           (70)               70                          x
      13                2,553              0           1,199                           x           x
      14                  510              0             282                           x
      19                   14              0               14      x
      21                2,208              0             645       x                   x           x
      22                1,755           (10)           1,117       x                   x
      23                1,477              0                0                                                                              x
      25                    4              0                4               x
      28                  465              0                0                                                                              x
      29                    0          (135)             135       x
      31                4,290              0           1,187                           x                     x
      32                1,950              0           1,366       x        x
      33                3,707              0             561       x        x                                x                             x
      34                1,650              0             650       x        x
      37                  528              0             451                           x
      39                8,463              0               12               x                      x                                       x
      40                   49              0               49                                                                 x
      41                  108              0             108                x
      42                1,826              0               96      x        x                                                              x
      44                  168              0             168       x                               x
      47                2,967              0                0                                                                              x
      48                    3              0                3      x
      50                  279          (285)             564                           x           x
      51                   60              0               60               x
      54                2,568              0             948       x                   x
      55                  735              0                0                                                                              x
      56                3,312              0                0                                                                              x
      57                  136              0             136       x        x
      58                3,069              0             584       x        x          x
      59                  300              0             300                                                 x
      62                4,524              0           1,333                           x                     x
      64                  507              0             609                           x
     Totals          $52,737         ($947)         $14,603      14         13        13          6          4                1            8




                                                      37
Appendix E

OVERPAID ASSISTANCE FOR ZERO-INCOME HOUSEHOLDS

       OIG household
        identification       Total unreported      Overpaid housing        Amount being
           number                income               assistance        pursued by Authority
               3                         $2,595                $1,062                 $1,062
              12                          1,878                   940                      0
              14                          3,720                   515                    163
              16                          7,691                 1,400                  1,400
              18                         12,621                 3,802                  3,802
              19                         10,905                 1,716                  1,716
              20                          3,520                 1,026                  1,026
              21                          8,996                   920                    920
              23                          5,637                   760                      0
              29                          5,398                  1803                    109
              33                          4,851                 2,256                  2,256
              36                         13,574                 2,262                      0
              44                          6,707                 1,485                      0
              46                          3,601                   484                    484
              47                         23,292                 5,856                      0
              49                          4,295                   331                      0
              52                          1,911                   528                      0
              54                          5,166                   130                    130
              55                         10,949                 2,250                      0
              62                          9,426                 2,758                  2,758
              63                             87                    26                      0
              67                          9,918                 2,451                      0
              77                          2,209                    84                      0
              82                         17,274                 2,908                  2,908
              83                          4,813                   436                      0
              87                         12,986                 1,794                      0
              89                          2,491                   574                      0
              94                            788                   326                      0
             100                          5,380                 1,026                      0
             102                          8,909                 2,349                      0
             103                         24,338                 4,258                  4,258
             106                          5,157                 1,176                      0
             107                          7,943                 1,596                      0
             109                            696                   113                      0
             111                         10,047                 1,478                  1,478
             116                          2,526                    81                      0
             117                         16,914                 3,057                  3,057
             120                         17,686                 3,323                      0
             124                         10,540                 4,640                      0
             125                          3,064                   612                      0
             126                          1,166                   165                      0
             127                         18,143                 3,066                      0
             128                          4,873                   314                    314
             129                          9,790                 2,088                      0
             130                            529                     3                      0
             131                          7,465                 1,565                      0
             133                          9,326                 2,667                      0
                         Totals                              $74,460                $27,841




                                                  38
